Juvenile Repatriation Practices at Border Patrol Sectors on the Southwest Border
Juvenile Repatriation Practices at Border
Patrol Sectors on the Southwest Border
Report Number I-2001-010
September 2001
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
Background
Scope and Methodology
EL CENTRO BORDER PATROL SECTOR
Sector Juvenile Repatriation Procedures
Sector Juvenile Repatriation Policy
Sector Juvenile Repatriation Records
INS Juvenile Repatriation Policy
OTHER BORDER PATROL SECTORS
Number of Juveniles
Juvenile Repatriation Procedures
Juvenile Repatriation Records
Physical Detention Conditions
RECOMMENDATIONS
APPENDIX I  Scope and Methodology
Inspection Teams
Data Review
APPENDIX II     Detention Standards
APPENDIX III     INS Management's Response
APPENDIX IV  Office of the Inspector General's Analysis of Management's Response